App. 1
APPENDIX A
LIST OF SIGNATORIES
Professor John R. Allison
McCombs Graduate School of Business
University of Texas at Austin
Professor Margo Bagley
Emory Law School
Professor Ann Bartow
Franklin Pierce Law School
University of New Hampshire
Professor Jeremy Bock
Tulane University Law School
Professor Michael A. Carrier
Rutgers Law School
Professor Colleen V. Chien
Santa Clara University School of Law
Professor Andrew Chin
University of North Carolina School of Law
Professor Jorge L. Contreras
University of Utah S.J. Quinney College of Law
Professor Rochelle Dreyfuss
New York University School of Law
Professor Samuel F. Ernst
Golden Gate University School of Law
Professor Robin Feldman
University of California Hastings College of Law
Professor Paul R. Gugliuzza
Temple University School of Law

App. 2
Professor Timothy Holbrook
Emory Law School
Professor Erik Hovenkamp
University of Southern California School of Law
Professor David Hricik
Mercer University School of Law
Professor Sapna Kumar
University of Houston Law Center
Professor Christa Laser
Cleveland-Marshall College of Law
Professor Mark A. Lemley
Stanford Law School
Professor David Levine
Elon University School of Law
Professor Yvette Joy Liebesman
St. Louis University School of Law
Professor Orly Lobel
University of San Diego School of Law
Professor Brian J. Love
Santa Clara University School of Law
Professor Stephen McJohn
Suffolk University Law School
Professor Mark P. McKenna
Notre Dame Law School
Professor Michael J. Meurer
Boston University Law School
Professor Joseph Scott Miller
University of Georgia School of Law

App. 3
Professor Tyler T. Ochoa
Santa Clara University School of Law
Professor David Olson
Boston College Law School
Professor Joshua D. Sarnoff
DePaul University College of Law
Professor Brenda Simon
California Western School of Law
Professor Christopher Turoski
University of Minnesota Law School

